               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Management of Detail Assignments

                       Audit Report




                                              May 23, 2013

Report Number DP-AR-13-006
                                                                          May 23, 2013

                                                Management of Detail Assignments

                                                       Report Number DP-AR-13-006




BACKGROUND:
A temporary (detail) assignment is the
placement of a career employee in           WHAT THE OIG FOUND:
another established position that is        The Postal Service did not effectively
vacant or from which the incumbent is       manage detail assignments.
absent from duty. Detail assignments        Specifically, the Postal Service did not
are supposed to be made only for the        ensure compliance with detail
shortest period of time necessary and       assignment policies and was unable to
may be used to meet emergencies             identify who was on detail and the
caused by an abnormal workload, a           associated costs. Additionally, the
change in mission or organization, or       Postal Service did not have consistent
unanticipated absences.                     polices for detail assignment
                                            justifications and approvals. As a result,
The U.S. Postal Service uses two            the Postal Service spends about
policies to manage detail assignments:      $34 million annually on travel for detail
one is issued by the Controller and the     assignments that are not properly
other by Employee Resource                  supported. Without centralized oversight
Management. The policies outline the        of detail assignments, it is difficult to
justifications and approvals necessary      determine if assignments are justified
for detail assignments. The Controller      and approved properly and evaluate the
policy requires documented justifications   costs and benefits associated with detail
and focuses on the financial impact of      assignments.
detail assignments. The Employee
Resource Management policy requires         WHAT THE OIG RECOMMENDED:
only the completion of a Postal Service     We recommend the Postal Service
Form 1723, Assignment Order, and            assign the responsibility for managing
focuses on the temporary placement          detail assignments and associated
and hiring of employees. The Postal         travel costs to the appropriate functional
Service relies on area and district         area. Additionally, it should direct the
managers to follow these policies when      vice president, Employee Resource
assigning personnel to a detail             Management, and vice president,
assignment.                                 Controller, to consolidate detail
                                            assignment policies into one manual to
Our objective was to evaluate the           ensure consistency.
effectiveness of the Postal Service’s
management of detail assignments.           Link to review the entire report
May 23, 2013

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND
                            EXECUTIVE VICE PRESIDENT

                           JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                            EXECUTIVE VICE PRESIDENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Management of Detail Assignments
                           (Report Number DP-AR-13-006)

This report presents the results of our audit of the Management of Detail Assignments
(Project Number 12BG033FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Timothy O’Reilly
    Sean M. Lacey
    Corporate Audit and Response Management
Management of Detail Assignments                                                                                   DP-AR-13-006



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Managing Detail Assignments ......................................................................................... 1

Inconsistent Detail Assignment Policies .......................................................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impacts ....................................................................................... 9

Appendix C: Management's Comments ........................................................................ 10
Management of Detail Assignments                                                DP-AR-13-006



Introduction

This report presents the results of our audit of the Management of Detail Assignments
(Project Number 12BG033FF000). Our objective was to evaluate the effectiveness of
the U.S. Postal Service’s management of detail assignments. This self-initiated audit
addresses financial risk. See Appendix A for additional information about this audit.

A temporary (detail) assignment is the placement of a career employee in another
established position that is vacant or from which the incumbent is absent from duty. The
detailed employee performs duties and responsibilities other than those specifically set
forth in the employee's position description. Detail assignments are supposed to be
made only for the shortest period of time necessary and may be used to meet
emergencies caused by abnormal workload, a change in mission or organization, or
unanticipated absences.

The U.S. Postal Service uses two policies to manage detail assignments: one is issued
by the Controller and the other by Employee Resource Management. The policies
outline the justifications and approvals necessary for detail assignments. The Controller
policy requires documented justifications and focuses on the financial impact of detail
assignments. The Employee Resource Management policy requires only the completion
of a Postal Service Form 1723, Assignment Order, and focuses on the temporary
placement and hiring of employees. The Postal Service relies on area and district
managers to follow these policies when assigning personnel to detail assignments.

Conclusion

The Postal Service did not effectively manage detail assignments. Specifically, the
Postal Service did not ensure compliance with detail assignment policies and was
unable to identify who was on detail and the associated costs. Additionally, the Postal
Service did not have consistent polices for detail assignments pertaining to justification
and approval. As a result, the Postal Service spends about $34 million annually on
travel for detail assignments that were not properly supported. We consider these
expenditures unsupported questioned costs. See Appendix B for the calculation of
monetary impact.

Managing Detail Assignments

The Postal Service did not manage detail assignments to ensure overall compliance
with policies or have a process in place to track detail assignments and the associated
costs on a nationwide basis. This occurred because headquarters personnel relied on
the areas and districts to manage detail assignments, and no one in headquarters was
responsible for monitoring the overall program. The vice president, Employee
Resource Management, stated that Human Resources should have the functional
responsibility to oversee the nationwide management of detail assignments and related
travel costs. As a result, the Postal Service spent at least $34 million in fiscal year

                                             1
Management of Detail Assignments                                                                        DP-AR-13-006



(FY) 2011 and $34.9 million in FY 20121 on travel for detail assignments. The Postal
Service could not determine who was on detail and could not assess whether the
assignments and associated costs were properly justified and approved.

Further, the Postal Service uses a management process titled Delivering Results,
Innovation, Value, and Efficiency (DRIVE)2 to improve business strategy development
and execution. The Postal Service currently has two DRIVE initiatives potentially
affected by how well it manages detail assignments: workforce optimization and costing
systems. The goal of workforce optimization is to achieve an optimal staffing plan based
on targets for labor costs and workforce mix. Costing systems develop
recommendations to improve cost reporting to provide management the right tools to
manage the business in terms of making decisions about operational changes.
Effectively managing detail assignments directly impacts these two DRIVE initiatives;
however, the Postal Service did not assign responsibility for ensuring compliance with
policy and nationwide management of detail assignments and the associated costs.
Consequently, the Postal Service cannot effectively achieve the goals of the DRIVE
initiatives without a process resulting in nationwide management and visibility of detail
assignments.

The procedures for managing detail assignments are contained in two Postal Service
handbooks.3 One handbook requires justification and appropriate approvals for all
extended duty assignments in advance and in writing. Specifically, the justification
consists of five elements: purpose, costs, benefits, consideration of alternatives, and
value. Further, detail assignments in excess of 30 days require officer approval. The
other handbook requires only completion of a Postal Service (PS) Form 1723,
Assignment Order, to support detail assignments.

To determine compliance with these handbooks, we visited or contacted six area4 and
57 district offices and determined that all but two did not track detail assignments, and
only one tracked the associated travel costs. Additionally, none of the areas and
districts followed the requirements outlined in Postal Service policy for justifying and
approving detail assignments. Rather, area and district personnel only completed a
PS Form 1723 to support detail assignments. While completing PS Form 1723 meets
the requirements of one of the handbooks, it does not meet the requirements of the




1
  Travel costs are from reimbursement requests where the traveler identified "Detail" as the purpose of travel in the
eTravel system.
2
  DRIVE focuses on a portfolio of active strategic initiatives the Postal Service will implement to meet performance
and financial goals.
3
  Handbook EL-312, Employment and Placement, October 2012, and Handbook F-15, Travel and Relocation, May
2011.
4
  We did not survey the Northeast Area office or its district offices because of the impact of Super Storm Sandy on
those locations.


                                                           2
Management of Detail Assignments                                                                      DP-AR-13-006



other, which further requires the appropriate approving official to approve all extended
duty assignments in advance and in writing, based on all of the following:

   Purpose of the assignment or detail.
   Cost.
   Benefit expected.
   Consideration of alternatives.
   Value to the Postal Service.

In addition, while the eTravel system5 is able to identify travel expenses associated with
detail assignments, the Postal Service did not configure the system to track those
expenses or require those on detail assignments to charge their respective travel
expenses to "Details." As a result, detail assignment travel costs were included with
other mission-related travel in an account called "Travel - Other Than Training." In FYs
2011 and 2012, the Postal Service reported $184.8 million in "Travel - Other Than
Training."

To estimate the travel costs, the Postal Service prepared and executed a special query6
in the eTravel system for detail assignment travel costs for FYs 2011 and 2012. We
believe that at least $34 million for FY 2011 travel costs and $34.9 million for FY 2012
costs (37 percent) was actually for detail assignment travel costs and improperly
reported. Figure 1 displays detail assignment travel costs by month for FYs 2011 and
2012.

                               Figure 1. Detail Assignment Travel Costs




Source: eTravel system data.



5
 The eTravel system is the online application used to create work travel expense reports.
6
 The query was a custom extract with raw data provided by the eTravel team. The eTravel reporting system did not
have an existing report to provide this information. The Postal Service is in the process of updating the reporting
system that will include a report to show the purpose of travel. The latest scheduled revision release date
April 15, 2013.


                                                         3
Management of Detail Assignments                                               DP-AR-13-006



Because the Postal Service did not justify the detail assignments in accordance with the
criteria outlined in the appropriate handbook, we consider the expenses for detail
assignments unsupported questioned costs. When we explained to management that
detail travel cost information was not readily available, they agreed that it needs to be
and began working with a vendor to enable the tracking of detail assignment travel
expenses. Management expects this work will be complete in March 2013. This change
to the eTravel system provides the Postal Service with the ability to track travel
expenses associated with detail assignments without using a special query. See
Appendix B for details of the monetary impact.

Further, as part of a workforce optimization initiative, the Postal Service reduced career
positions by 5.2 percent from FYs 2011 to 2012. In addition, the Postal Service is
embarking on an effort to close postal facilities across the country. According to the vice
president, Employee Resource Management, the number of detail assignments will
increase because of the Postal Service's workforce restructuring. Therefore,
management agreed that the Postal Service must establish a system to manage detail
assignments. Without centralized oversight of detail assignments, it is difficult to
determine whether the assignments are justified and approved properly and evaluate
the total costs and benefits associated with detail assignments.

Inconsistent Detail Assignment Policies

The Postal Service did not have consistent polices regarding justifications and
approvals for detail assignments. There are two Postal Service handbooks used to
manage detail assignments: one issued by Employee Resource Management
(Handbook EL-312) and the other by the Controller's office (Handbook F-15). These
handbooks are similar, but the guidance on detail assignment justification and the
approval process are not consistent and not always followed. In addition, the handbooks
do not provide for an overall functional program oversight responsibility for managing
detail assignments. This allows Employee Resource Management and the Controller's
office to act independently and without regard for a consistent detail assignment policy.
Table 1 displays the differences between the two handbooks.




                                             4
 Management of Detail Assignments                                                                DP-AR-13-006




                                   Table 1. Handbook Inconsistencies

                                                Handbook F-157                     Handbook EL-3128
 Detail Justification                       Written documentation               Documented using
                                            before travel is                    PS Form 1723
                                            approved
 Higher Level Detail
 Approval9
   Thirty or more calendar                  Officer approval                    Next level of management
   days
   Ninety or more calendar                  Officer approval (same              Vice President, Area
   days                                     as 30 calendar days)                Operations
   Three hundred sixty-five or              Vice President,                     Nothing listed
   more calendar days                       Employee Resource
                                            Management, and Vice
                                            President, Controller
Source: Postal Service policies.

 Without consistent policies, the Postal Service cannot determine whether detail
 assignments are justified and properly approved.

 Recommendations

 We recommend the chief human resources officer and executive vice president, in
 conjunction with the chief financial officer and executive vice president:

 1. Designate overall responsibility for managing detail assignments and associated
    travel costs to an appropriate functional area to ensure detailed assignment
    compliance, effectiveness, and efficiency.

 2. Direct the acting vice president, Employee Resource Management, and vice
    president, Controller, to update detail assignment policies to ensure they are
    consistent.

 Management’s Comments

 Management agreed with the findings and recommendations. In a subsequent
 communication, management partially agreed with the monetary impact.

 In response to recommendation 1, management stated that the vice president,
 Employee Resource Management, was designated with the overall responsibility and
 oversight for providing policy and policy guidance to Postal Service personnel. Area and

 7
   Handbook F-15, Sections 2-2.1.2 and 4-1.2.
 8
   Handbook EL-312, Sections 716.12 and 716.14.
 9
   Handbook F-15 does not differentiate between higher level and lateral details.


                                                           5
Management of Detail Assignments                                             DP-AR-13-006



district human resource managers will work with local managers to ensure compliance
with policies. In a subsequent communication, management clarified their response by
stating that the vice presidents of Employee Resource Management and Controller
have a shared responsibility for providing oversight. The vice president, Employee
Resource Management, will have responsibility and oversight for providing process and
policy guidance to headquarters functional groups, as well as area and district human
resources on the monitoring and tracking of detail assignments. The vice president,
Controller, will be responsible for managing associated travel costs and will coordinate
efforts with area and district finance managers.

In response to recommendation 2, management stated that the vice president,
Employee Resource Management, and the vice president, Controller, will coordinate
efforts to align detail assignment policies by July 31, 2013.

In a subsequent communication, management agreed that the travel costs related to
detail assignments may not have been recorded in the appropriate general ledger
account. However, they could not validate whether the monetary impact was
unsupported as the expenses were recorded in e-Travel and, ultimately, approved by
the employee’s manager.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. The OIG considers recommendation 1 significant and, based on management’s
corrective actions, we have closed the recommendation.

The monetary impact was classified as unsupported questioned cost, not because the
cost were not recorded or approved by the employee’s manager, but because the
Postal Service did not follow proper procedures for approving detail assignments. The
OIG does not assert in this report that improper payments were made.




                                           6
Management of Detail Assignments                                            DP-AR-13-006




                           Appendix A: Additional Information

Background

A detail assignment is the placement of a career employee in another established
position that is vacant or from which the incumbent is absent from duty. Detail
assignments are made only for the shortest period and may be used to meet
emergencies caused by abnormal workload, a change in mission or organization, or
unanticipated absences. A career employee temporarily assigned to a higher-grade
position must perform the primary or core duties and be directed to assume the major
responsibilities of the higher-grade position to be eligible for higher-level pay.

The Postal Service uses two policies to manage detail assignments: one is issued by
the Controller's office (Handbook F-15) and the other by Employee Resource
Management (Handbook EL-312). The Controller's office requires the approving official
to approve all detail assignments in advance and in writing. Handbook EL-312 requires
only the completion of a PS Form 1723, which does not incorporate all the requirements
of the Controller's office.

In addition, Handbook EL-312 requires higher level detail assignments of 30 or more
calendar days to receive the approval of the next level of management. The Controller's
office requires advanced approval from the appropriate officer when a detail assignment
is expected to last longer than 30 days.

Objective, Scope, and Methodology

Our objective was to evaluate the effectiveness of the Postal Service’s management of
detail assignments. Our audit scope covered the period from October 1, 2010 through
September 30, 2012. To accomplish this objective, we performed the following
activities:

   Visited headquarters, one area office, and two district offices:

    o Great Lakes Area.
    o Gateway District (Great Lakes Area) and Western Pennsylvania District (Eastern
      Area).

   Interviewed district, area, and headquarters personnel to establish a universe of
    detailed employees and to obtain information about the detail assignment process.

   Inquired with all areas through email (except the Northeast Area because of Super
    Storm Sandy) to understand how detail assignments are supported.




                                              7
Management of Detail Assignments                                                 DP-AR-13-006



   Interviewed headquarters personnel in the Controller and Employee Resource
    Management offices to determine who is responsible for managing detail
    assignments.

   Determined who is responsible for maintaining the support for detail assignments.

   Reviewed PS Forms 1723 used to document detail assignments for employees in
    the Great Lakes Area and the Gateway and Western Pennsylvania districts.

   Inquired whether other documentation is available relative to detail assignments
    other than PS Form 1723.

   Discussed accounting for detail assignment travel expenses with headquarters
    personnel and obtained travel expense information from eTravel.

We conducted this performance audit from September 2012 through May 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 21, 2013, and included their
comments where appropriate.

We assessed the reliability of the travel expense data by performing electronic testing of
required data elements, reviewing related documentation, and interviewing agency
officials knowledgeable about the data. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              8
Management of Detail Assignments                                                                      DP-AR-13-006




                                    Appendix B: Monetary Impacts

          Recommendation                      Impact Category                               Amount
                1                      Unsupported Questioned Costs10                      $68,838,928

When calculating the monetary impact for unsupported detail assignment travel costs,
we obtained those travel costs from the eTravel system that had "Detail" as the purpose
of travel for FYs 2011 and 2012. The Postal Service incurred $33.9 million in FY 2011
and $34.9 million in FY 2012 in detail assignment travel costs for a total of $68.8 million.
We consider this unsupported questioned costs.




10
  A weaker claim and a subset of questioned costs because of failure to follow policy or required procedures, but
does not necessarily connote any real damage to the Postal Service.


                                                          9
Management of Detail Assignments                             DP-AR-13-006



                         Appendix C: Management's Comments




                                        10
Management of Detail Assignments        DP-AR-13-006




                                   11
